                                                                                         Office of Inspector General

                                                                                         U.S. Department of Homeland Security
                                                                                         Eastern Region
                                                                                         Office of Emergency Mana gement Oversight
                                                                                         10 Tenth Street, Suite 750
                                                                                         Atlanta, Georgia 30309



                                                                                        Homeland
                                                                                        Security
                                                         February 13, 2008

MEMORANDUM FOR:	                      Sidney Melton, Director
                                      FEMA's Mississippi Tr7i7J;Oi?~


FROM:	                                C. David Kimble, Director
                                      Eastern Regional Office

SUBJECT:                              Audit ofHurricane Katrina Activities for
                                       Jackson County, Mississippi
                                      Public Assistance Identification Number: 059-99059-00
                                      FEMA Disaster Number 1604-DR-MS
                                      Report Number DA-08-05

We performed an audit of disaster costs associated with Hurricane Katrina activities for Jackson
County, Mississippi. The objective of the audit was to determine whether the county was properly
accounting for disaster-related costs and whether such costs were eligible for funding under the Federal
Emergency Management Agency (FEMA) disaster assistance programs.

As of January 3,2007, the cut-off date of our review , the county received an award of$52.7 million
from the Mississippi Emergency Management Agency (MEMA), a FEMA grantee, for emergency
protective measures, debris removal, and other disaster-related activities. The award provided for 46
large projects and 158 small projects' . We reviewed costs totaling $34.3 million under 6 large projects.
The audit covered the period August 29,2005, to January 3,2007, during which the county received
$29.5 million ofFEMA funds under the 6 large projects (see Exhibit).

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to Government Auditing Standa rds issued by the Comptroller General of the United States .
We reviewed the county' s disaster grant accounting system and contracting policies and procedures;
selected judgmental samples of project expenditures; interviewed count y, grantee, and FEMA
personnel ; and performed other procedures considered necessary under the circum stances. We did not
assess the adequacy of the count y's internal controls applicable to its grant activities because it was not
necessary to accomplish our audit objecti ve. We did, however, gain an understanding of the count y's
grant accounting system and its policies and procedures for administering activities provided for under
the FEMA award .




I   Federal regulations in effect at the time of Hurricane Katrina set the large project threshold at $55,500.
                                        RESULTS OF AUDIT


The county accounted for FEMA funds on a project-by-project basis according to federal regulations
for large projects. However, we identified $1,549,536 of questioned costs resulting from inadequate
documentation of hazardous stumps, ineffective debris removal monitoring, and debris removal
activities that are the responsibility of the Federal Highway Administration.

A.	 Inadequate Documentation of Hazardous Stumps. FEMA reimbursed the county $3,283,200 under
    Projects 3376 ($3,254,520) and 9949 ($28,680) for hazardous stumps removed by its debris
    removal contractor during the period January through August 2006. However, the documentation
    that supported the stump removal activity was not adequate to establish that the stumps posed a
    public health and safety threat. As a result, we could not readily determine the eligibility ofthe
    $3.3 million claimed by the county for stump removal. According to 44 CFR 206.224 (a)(l), debris
    removal is in the public interest when it is necessary to eliminate immediate threats to life, public
    health, and safety.

   The county contracted with a debris removal monitoring company to oversee the work performed
   by the county's debris removal contractor, whose activities included removing stumps that posed a
   threat to the public. According to 44 CFR 13.36(b)(2), grantees and subgrantees will maintain a
   contract administration system which ensures that contractors perform in accordance with the terms
   and conditions of the contract. The contract terms required the monitoring company to document
   the hazardous nature of the stumps using photographs and global positioning system (GPS) data.
   This documentation was to serve as evidence for future reviews or audits of the costs claimed for
   such activity. However, neither the photographs nor the location data maintained by the company
   were adequate to show that the stumps posed a threat to the public. For example, in many
   instances, the photographs were only images of the ground after the stumps had been removed
   rather than the stumps themselves. In other cases, there were no photographs at all. In addition, the
   locations of the stumps were identified using street addresses rather than GPS data. As a result,
   physical inspections of where the stumps were located could not be readily conducted. According
   to federal cost principles (OMB Circular A-87, Attachment A, C.1.j), costs must be adequately
   documented to be allowable under federal awards.

    We discussed the lack of adequate documentation with FEMA during the course of the audit.
    Subsequent to completion of our fieldwork, FEMA and MEMA representatives performed a
    validation of the county's claim for hazardous stump removal. This validation resulted in a
    disallowance of$737,581 ofthe $3,283,200 claimed for stump removal. We reviewed their
    methodology and analysis and concur with the action taken. Therefore, this finding contains no
    recommendation and no further action is required by FEMA.

B.	 Ineffective Debris Removal Monitoring. Federal cost principles (OMB Circular A-87, Attachment
    A, C.1.a.) state that to be allowable, costs must be necessary and reasonable for proper and
    efficient performance and administration of federal awards. Furthermore, federal regulation (44
    CFR § 13.36(b)(2)) requires that grantees and sub grantees maintain a contract administration
    system which ensures that contractors perform in accordance with the terms, conditions, and
    specifications of their contracts or purchase orders.

    As discussed above under Finding A, the county's debris monitoring contractor did not comply
    with the contract terms and conditions when documenting the eligibility of billings by the debris


                                                    2

   removal contractor for hazardous stump removal. As a result, $737,581 ofthe county's claim was
   disallowed by FEMA for lack of adequate documentation. We question the reasonableness of the
   $7,027,017 claimed by the county for the monitoring contractor's services because the contractor
   did not perform according to the terms of the contract. We estimated that $450,085 of $7,027,017
   billed by the monitoring company was applicable to monitoring the removal of hazardous stumps.

   Subsequent to completion of our fieldwork, FEMA and MEMA performed a validation of the
   county's claim for debris removal monitoring costs and disallowed $274,825 for ineffective stump
   removal monitoring. We reviewed FEMA's analysis and concur with the action taken. Therefore,
   this finding contains no recommendation and no further action is required by FEMA.

e.	 Federal-Aid Roads. We identified $537,130 of funding for debris removal activities on federal-aid
    roads that had not been reimbursed to the county by the Federal Highway Administration (FHWA).
    According to 44 eFR 206.226 (a), FEMA funds cannot be used for expenditures recoverable from
    another federal program. FHWA representatives met with county officials in September 2005 and
    completed detailed damage inspection reports, totaling $714,825, which covered the initial push of
    debris from federal-aid roadways and a one-time thorough debris pickup. As of January 3,2007,
    the cut-off date of our review, the county had only received $177,695 of the FHWA funds.
    Accordingly, we question the remaining balance of $537,130.




                                                   3

                                      RECOMMENDATIONS


We recommend that the Director, Mississippi Transitional Recovery Office, in coordination with
MEMA:

   1.	 Inform the county, for future contracts under the FEMA award, to maintain a contract
       administration system which ensures that contractors perform in accordance with the terms,
       conditions, and specifications of their contracts or purchase orders (44 CFR § 13.36(b)(2)).

   2.	 Disallow the questioned costs of$537,130 applicable to federal-aid roads.


               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of our audit with FEMA, MEMA, and county officials on September 12,
2007. County officials did not agree with the questioned costs associated with hazardous stump
removal activities. They said that the costs should be allowed because the stumps would not have been
removed had they not met FEMA's eligibility requirements. However, the documentation maintained
by the county's monitoring contractor was not adequate to determine such eligibility.

Please advise me by April 13, 2008 of actions taken to implement the recommendations contained in
this report. Should you have any questions concerning this report, please call me at (404) 832-6702 or
Larry Arnold at (228) 385-1717. Key contributors to this assignment were Larry Arnold, Barbara
Arbuckle, and Jerry Aubin.




cc:	 DHS Audit Liaison
     FEMA Audit Liaison

    Deputy Director, GCRO

     Chief Financial Director, Gulf Coast Recovery Office

    Regional Director, FEMA Region IV

    Public Assistance Office, FEMA Mississippi Transitional Recovery Office

     Chief of Staff, FEMA Mississippi TRO

    Mississippi State Coordinating Officer

    Mississippi Legislative Auditor

     Director of Finance, Gulf Coast Recovery Office





                                                   4

                                                                   Exhibit


                  Jackson County, Mississippi

               FEMA Disaster No. 1604-DR-MS

Schedule of Funds Awarded, Costs Incurred, and Questioned Costs

            August 29,2005 through January 3,2007



    Project       Amount        ProjeptCosts         Amount
    Number       Awarded          Incurred         Questioned
       3376      $21,848,700     $20,138,217        $1,274,711
       4232        8,037,212        6,538,943          274,825
        5940       2,083,051        1,486,285
       7662          105,024           76,292
        9949       1,415,522          704,222
       10132         771,268          523,498

   Totals         $34,260,777        $29,467,457   $1,549,536




                                5

